IN THE SUPREME COURT OF THE UNITED STATES
LITTLE SISTERS OF THE POOR JEANNE JUGAN
RESIDENCE
Petitioner
vs.

No:

19-1053

CALIFORNIA, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
March 18, 2020
cc:
MARK L. RIENZI
THE BECKET FUND FOR THE
RELIGIOUS LIBERTY
1200 NEW HAMPSHIRE AVE., NW
SUITE 700
WASHINGTON, DC 20036
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004

